           Office Of Inspector General




February 24, 2004

JOHN A. RAPP
SENIOR VICE PRESIDENT, OPERATIONS

SUBJECT: Audit Report – Network Integration and Alignment
         Models – Independent Verification and Validation
         (Report Number NO-AR-04-005)

This report presents the results of our self-initiated review of the Network Integration
and Alignment Models project (Project Number 03YG006AC000). The overall audit
objective was to determine whether the Postal Service has established adequate
controls to ensure the credibility of the Network Integration and Alignment models. This
review is part of an on-going audit and this report covers the process used by the Postal
Service for verifying and validating the Network Integration and Alignment models.

The Postal Service conducted limited verification and validation on the Network
Integration and Alignment models, but they were not independent or fully documented.
The lack of independent verification and validation could increase public and
congressional concerns about the objectivity of this initiative, which has significant
strategic implications. We made two recommendations to address this issue.
Management agreed with our recommendations and has initiatives in progress or
planned addressing the issues in this report. Management’s comments and our
evaluation of these comments are included in the report.

The Office of Inspector General (OIG) considers recommendation 2 as significant and,
therefore, requires OIG concurrence before closure. Consequently, the OIG requests
written confirmation when corrective action is completed. The recommendation should
not be closed in the follow-up tracking system until the OIG provides written
confirmation that the recommendation can be closed.




   1735 N Lynn St
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions, or need additional information please contact Robert J. Batta,
director, Network Operations - Processing, at (703) 248-2100 or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

Attachment

cc: Paul E. Vogel
    Patrick R. Donahoe
    Mary Anne Gibbons
    Pranab M. Shah
    Susan M. Duchek
Network Integration and Alignment Models –                      NO-AR-04-005
 Independent Verification and Validation



                                  TABLE OF CONTENTS

 Executive Summary                                                        i

 Part I                                                                  1

 Introduction                                                            1

     Background                                                          1
     Objective, Scope, and Methodology                                   1
     Prior Audit Coverage                                                2

 Part II                                                                 4

 Audit Results                                                           4

     Independent Verification and Validation                             4
     Recommendations                                                     6
     Management’s Comments                                               6
     Evaluation of Management’s Comments                                 6

 Appendix A. Users of Independent Verification and Validation            7
 Appendix B. Management’s Comments                                      10
Network Integration and Alignment Models –                                          NO-AR-04-005
 Independent Verification and Validation


                                  EXECUTIVE SUMMARY
 Introduction                  This audit determined whether the Postal Service has
                               established adequate controls to ensure the credibility of the
                               Network Integration and Alignment models. This review
                               was self-initiated and is part of an on-going audit of the
                               Network Integration and Alignment initiative. The Network
                               Integration and Alignment initiative will examine more than
                               500 facilities in the Postal Service infrastructure and affects
                               approximately $20 billion in processing and distribution
                               costs and $5.5 billion in transportation costs annually.

 Results in Brief              The Postal Service conducted limited verification and
                               validation on the Network Integration and Alignment models,
                               but they were not independent or fully documented. Since
                               network optimization was a new initiative, the Postal Service
                               did not have policies and procedures for determining
                               independent verification and validation requirements. The
                               Postal Service previously used contractors to perform
                               independent verification and validation for other systems.

                               Additionally, the Postal Service was reluctant to have
                               third-party verification and validation because of concerns
                               that an independent party could recommend another
                               modeling approach without understanding the Postal
                               Service and its systems. We believe that independent
                               verification and validation of the Network Integration and
                               Alignment models is critical because this initiative has
                               significant strategic implications including the potential
                               consolidation or closure of Postal Service facilities. In our
                               view, the potential risk of making incorrect decisions based
                               on these models outweighs the time and cost of performing
                               an independent verification and validation.

                               Without third-party verification and validation of the models,
                               the Postal Service has no independent assurance the
                               models meet the specifications and defined objectives of the
                               initiative and that results are valid and useful. Also, the lack
                               of independent verification and validation could increase
                               public and congressional concerns about the objectivity of
                               the process.




                                                 i
Network Integration and Alignment Models –                                      NO-AR-04-005
 Independent Verification and Validation




 Summary of                    We recommended the Postal Service establish policies and
 Recommendations               procedures for determining independent verification and
                               validation requirements for the Network Integration and
                               Alignment models. In addition, the Postal Service should
                               use either a separate contractor or an independent Postal
                               Service team outside the developer group to conduct
                               verification and validation of the Network Integration and
                               Alignment models.

 Summary of                    Management agreed with our recommendations to establish
 Management’s                  policies and procedures for determining independent
 Comments                      verification and validation requirements and to use a
                               separate contractor or an independent Postal Service team
                               outside the developer group to conduct verification and
                               validation of the Network Integration and Alignment models.
                               Management’s comments, in their entirety, are included in
                               Appendix B of this report.

 Overall Evaluation of         We consider management’s comments responsive to the
 Management’s                  intent of our recommendations.
 Comments




                                               ii
Network Integration and Alignment Models –                                        NO-AR-04-005
 Independent Verification and Validation


                                       INTRODUCTION
 Background                    The President’s Commission on the Postal Service found
                               that the Postal Service has more infrastructure than it needs
                               and many assets are no longer effectively aligned with
                               changing requirements. The Postal Service has
                               transitioned from a predominately manual processing and
                               delivery environment to a highly automated environment.
                               However, Postal Service facilities are not designed for or
                               used in the most efficient manner. According to the
                               President’s Commission, these inefficient operations and an
                               antiquated network cost the Postal Service billions of dollars
                               in unnecessary expenses.

                               Postal Service management recognized the problem with its
                               antiquated network and the need to consolidate or close
                               facilities, and standardize and modernize those that
                               remained. As part of the Postal Service Transformation
                               Plan, the Postal Service developed a Network Integration
                               and Alignment initiative to optimize its processing and
                               transportation network. The charter of the initiative is to
                               create a flexible logistics network that reduces Postal
                               Service and customers’ costs, increases operational
                               effectiveness, and improves consistency of service. The
                               Network Integration and Alignment initiative affects
                               approximately $20 billion in processing and distribution
                               costs and $5.5 billion in transportation costs annually. This
                               initiative will examine more than 500 processing and
                               transportation facilities.

                               Postal Service management formed a Network Integration
                               and Alignment team to create a sound analytical basis for
                               redesigning the logistics network. The team included Postal
                               Service operational experts, a business consulting firm, and
                               network optimization experts from industry and academia.
                               The team developed models that were used to identify
                               solutions and simulations to test the feasibility of the
                               solutions. International Business Machines Consulting
                               Services and LogicTools, Inc., jointly designed and
                               developed the models, under contract to the Postal Service.

 Objective, Scope, and         The overall audit objective was to determine whether the
 Methodology                   Postal Service established adequate controls to ensure the
                               credibility of the Network Integration and Alignment models.




                                                1
Network Integration and Alignment Models –                                          NO-AR-04-005
 Independent Verification and Validation


                               This report covers our review of the Postal Service process
                               for validating and verifying the Network Integration and
                               Alignment models. We interviewed Postal Service
                               managers and reviewed documentation, provided by the
                               Postal Service, related to modeling. We also researched
                               and reviewed documents from various federal government
                               agencies, private industry, and academia related to
                               verification and validation of models. However, we did not
                               independently evaluate the Network Integration and
                               Alignment models.

                               This audit was conducted from July 2003 through
                               February 2004, in accordance with generally accepted
                               government auditing standards. We did not conduct tests of
                               internal controls due to the limited scope of our review. We
                               did not have complete and timely access to employees,
                               reports, and data, which impacted our ability to complete
                               this review. We discussed our conclusions and
                               observations with appropriate management officials and
                               included their comments, where appropriate.

 Prior Audit Coverage          We issued a White Paper, entitled, Network Integration and
                               Alignment Project (Product Number AC-OT-03-001, dated
                               September 23, 2003), that described the project, reported
                               its status, and identified project oversight.

                               In December 2002, the General Accounting Office (GAO)
                               announced plans to review the Postal Service efforts to
                               optimize the Postal Service infrastructure. The GAO’s
                               objectives were to develop an overview of the Postal
                               Service’s existing infrastructure for retail, mail processing,
                               transportation, and delivery networks; determine planned
                               Postal Service changes to the networks and the impact of
                               those changes; and identify oversight issues associated
                               with the Postal Service plans. The GAO review was
                               ongoing at the time this report was issued.

                               The President’s Commission on the Postal Service issued a
                               report in July 2003. The commission praised the Postal
                               Service for efforts to redesign the logistics network. The
                               report also included a recommendation related to the
                               Network Integration and Alignment initiative. The
                               commission recommended the creation of a Postal Network
                               Optimization Commission to make recommendations




                                                 2
Network Integration and Alignment Models –                                         NO-AR-04-005
 Independent Verification and Validation


                               relating to the consolidation and rationalization of the Postal
                               Service mail processing and distribution infrastructure.

                               AT&T Government Solutions prepared a report, dated
                               August 27, 2003, Analysis of the Postal Service’s Logistics
                               Network and Development of a Network Optimization Model
                               for the President’s Commission on the Postal Service. The
                               commission wanted to know the excess capacity of the
                               processing and distribution system, how it could be
                               optimized, and the financial impact of the optimization.
                               AT&T reported they did not obtain adequate data in time to
                               perform an analysis. Since AT&T was to perform an
                               independent study, they did not have access to validated
                               and processed data from the Network Integration and
                               Alignment project. AT&T also found that some data did not
                               exist at Postal Service Headquarters and other data that
                               was available needed to be validated. The AT&T report
                               stated the Postal Service needed to collect the types of data
                               described in the report to make strategic decisions about
                               network improvement.




                                                3
Network Integration and Alignment Models –                                         NO-AR-04-005
 Independent Verification and Validation


                                       AUDIT RESULTS
 Independent                  Since the nationwide network optimization was a new
 Verification and             initiative, the Postal Service did not have policies and
 Validation                   procedures for determining independent verification and
                              validation requirements. The need for independent
                              verification and validation should be based on the criticality
                              of the project and available resources. The Postal Service
                              previously used contractors to perform independent
                              verification and validation for other systems.

                              The Postal Service conducted limited verification and
                              validation on the Network Integration and Alignment models,
                              but they were not independent or fully documented. The
                              Postal Service Network Integration and Alignment team
                              verified the results of each run of the optimization model. A
                              consultant for International Business Machines Consulting
                              Services, who was also a professor from Carnegie Mellon
                              University, actively participated in the Network Integration
                              and Alignment initiative. Although this consultant verified
                              the model built by LogicTools, Inc. met the specifications
                              and objectives defined for the model, these verifications
                              were limited and did not qualify as independent because he
                              was directly involved in the project. In addition, complete
                              documentation was not available to support the scope of the
                              verification and validation process.

                              Independent verification and validation methodologies are
                              well established. Organizations throughout the federal
                              government and industry use independent verification and
                              validation as a control to ensure systems are adequately
                              tested and validated. The GAO, Department of Health and
                              Human Services, Department of Defense, National
                              Aeronautics and Space Administration, and National
                              Institute of Standards and Technology are just a few of the
                              organizations in the federal government that use, have
                              used, or recommend using independent verification and
                              validation. Advocates of independent verification and
                              validation include experts from industry and academia. (See
                              Appendix A for details.)

                              There are several reasons why independent verification and
                              validation was not performed on the Network Integration and
                              Alignment models. First, the Postal Service does not have



                                                4
Network Integration and Alignment Models –                                       NO-AR-04-005
 Independent Verification and Validation


                              policies, procedures, or guidance governing independent
                              verification and validation of the Network Integration and
                              Alignment models. Second, the Postal Service was
                              reluctant to have independent verification and validation of
                              the models because they were concerned that an
                              independent contractor could conclude that another
                              modeling approach would be better, rather than look at the
                              current model and show how it could be made better. The
                              Postal Service was also concerned about the time it would
                              take an independent contractor to understand the Postal
                              Service and its systems.

                              We believe independent verification and validation is critical
                              because the Network Integration and Alignment initiative has
                              significant strategic implications. These include optimizing
                              the national distribution network by expansion,
                              consolidation, and/or closure of processing facilities. In
                              addition, the President’s Commission on the Postal Service
                              reported this initiative was the most important deliverable
                              from the Transformation Plan because the initiative
                              addresses processing, distribution, and bulk mail centers
                              throughout the United States. According to the President’s
                              Commission, the efficiency of these facilities is imperative
                              for the quality of service Americans expect to receive from
                              the Postal Service.

                              In our view, the potential risk of making incorrect decisions
                              based on these models outweighs the time and cost of
                              performing an independent verification and validation.
                              Without independent verification and validation of the
                              models, the Postal Service has no independent assurance
                              the optimization models meet the specifications and defined
                              objectives of the initiative and limited assurance the results
                              of the models are valid and useful. Also, the lack of
                              independent verification and validation could increase public
                              and congressional concerns about the objectivity of the
                              process.

 Management’s Action          To improve credibility in the Network Integration and
                              Alignment initiative, Postal Service management verbally
                              agreed to conduct independent verification and validation of
                              the models. They plan to develop policies and procedures
                              for this process.




                                               5
Network Integration and Alignment Models –                                       NO-AR-04-005
 Independent Verification and Validation




 Recommendation               We recommend the senior vice president, Operations:

                              1. Establish policies and procedures for determining
                                 independent verification and validation requirements for
                                 the Network Integration and Alignment models.

 Management’s                 Management agreed to establish policies and procedures for
 Comments                     verification and validation by an independent, internal group.
                              The Postal Service expects that initial policies and
                              procedures will start to be formulated during March 2004
                              and will continue to be refined throughout the independent
                              verification and validation process.

 Recommendation               2. Use either a separate contractor or an independent
                                 Postal Service team outside the developer group to
                                 conduct verification and validation of the Network
                                 Integration and Alignment models.


 Management’s                 Management agreed to form an independent, internal group
 Comments                     to conduct verification and validation of the Network
                              Integration and Alignment models. The Capital and
                              Program Evaluation group in the Postal Service’s Finance
                              Department will head the team performing the independent
                              review. The Postal Service has begun selection of the
                              group and anticipates developing a project plan during
                              March 2004.

 Evaluation of                We consider management’s actions responsive to the intent
 Management’s                 of recommendations 1 and 2. Management’s planned
 Comments                     actions should correct the issues identified in the report.




                                               6
Network Integration and Alignment Models –                                     NO-AR-04-005
 Independent Verification and Validation




                          APPENDIX A
        USERS OF INDEPENDENT VERIFICATION AND VALIDATION

The GAO, Department of Health and Human Services, Department of Defense, National
Aeronautics and Space Administration, and National Institute of Standards and
Technology are examples of federal government organizations that use, have used, or
recommend using independent verification and validation. Science Applications
International Corporation is an example of private industry providing independent
verification and validation on Postal Service systems. In addition, there are academic
and private industry experts in the area of independent verification and validation that
are frequently quoted and referenced.

   •   GAO. During Y2K, GAO recommended that agencies, such as Veterans Affairs
       and Small Business Administration, obtain independent verifications and
       validations of their systems to ensure the systems were compliant and able to
       run as of midnight, January 1, 2000.

   •   Department of Health and Human Services. According to Department of
       Health and Human Services, Food and Drug Administration, Center for Devices
       and Radiological Health, the Center for Biologics Evaluation and Research,
       validation activities should be conducted using the basic quality assurance
       precepts of “independence of review.” Self-validation is extremely difficult.
       Independent evaluation is always better, especially for higher risk applications.
       Some firms contract out for a third-party independent verification and validation,
       but this solution may not always be feasible.

   •   Department of Defense. Department of Defense and the military services have
       recognized the growing significance of modeling and simulation for many aspects
       of their operations and have prepared directives and guidelines to provide
       general instruction on how, when, and under what circumstances formal
       verification, validation, and accreditation procedures should be employed.
       Verification, validation, and accreditation is performed when the potential risk of
       making an incorrect decision based on simulation outweighs the time and cost of
       performing verification, validation and accreditation to ensure that simulation can
       produce results that are sufficiently accurate and reliable.

   •   National Aeronautics and Space Administration. The National Aeronautics
       and Space Administration has its own independent verification and validation
       division that works with various customers within the National Aeronautics and
       Space Administration. According to the National Aeronautics and Space
       Administration, independent verification and validation is performed by an
       organization that is technically, managerially, and financially independent of the



                                             7
Network Integration and Alignment Models –                                     NO-AR-04-005
 Independent Verification and Validation


       development organization. The National Aeronautics and Space Administration
       has developed criteria to assess whether independent verification and validation
       should be applied to a given software development.

   •   National Institute of Standards and Technology. National Institute of
       Standards and Technology provides guidance dealing with independent
       verification and validation, including commercial off-the-shelf software products.

   •   Science Applications International Corporation. Science Applications
       International Corporation has provided full life-cycle independent verification and
       validation for various Postal Service systems, including the retail Point of Sale
       System and highly-complex mail sorting and routing infrastructure.

   •   A member of the University of Southern California, Center for Software
       Engineering, is an extensively cited expert on software engineering. He stated,
       “verification and validation activities produce their best results when performed
       by a verification and validation agent who operates independently of the
       developer or specification agent.” This member served with the Department of
       Defense as director of the Defense Advance Research Projects Agency
       Information Science and Technology Office. His most recent research has been
       in the areas of software process modeling and software requirements
       engineering.

   •   An employee of Tec-Masters, Inc., a Department of Defense contractor, has
       worked with the Defense Modeling and Simulation Office of the Department of
       Defense to produce a new Recommended Practices Guide. This employee has
       also performed independent verification and validation on the National Missile
       Defense Program. This employee has written books and articles on independent
       verification and validation. This employee has also participated in seminars and
       conferences on the subject. This employee’s philosophy is that whether or not a
       project needs independent verification and validation should be based on size
       and criticality of the program or project. The type of independent verification and
       validation should be considered based on available resources. Independent
       verification and validation should be conducted by either a separate contractor
       with a history of successful independent verification and validation programs who
       is not involved with the project or a qualified group within the organization but
       outside the developer’s group. This group must be independent.




                                             8
Network Integration and Alignment Models –                                                          NO-AR-04-005
 Independent Verification and Validation


        This employee provided basic rules for independent verification and validation
        (IVV).1 These rules are:

             1. “IVV must be an independent, third-party activity.

             2. IVV must be an overlay, not an integral part of the development cycle. It is
                an added-value concept.

             3. IVV must report to and owes its allegiance to the customer, not the
                developing contractor or organization.

             4. Although it may share the development tools and data, IVV must provide
                its own tools and disciplines apart from those used in development.

             5. Although flexible in terms of its starting point, IVV must verify each phase
                relative to itself and to its adjacent phases.

             6. IVV must provide a means of validating all testable software performance
                requirements.”




1
 Independent Verification and Validation: A Life Cycle Engineering Process for Quality Software, New York: Wiley,
1992.



                                                         9
Network Integration and Alignment Models –              NO-AR-04-005
 Independent Verification and Validation


                        APPENDIX B. MANAGEMENT’S COMMENTS




                                             10
Network Integration and Alignment Models –        NO-AR-04-005
 Independent Verification and Validation




                                             11
Network Integration and Alignment Models –        NO-AR-04-005
 Independent Verification and Validation




                                             12
